Analysis of Survey Results
on the Smithsonian’s Annual
Financial Statement
Assurance Letter Process




Office of the Inspector General
Report Number A-13-08
January 31, 2014
         Smithsonian Institution
         Office of the Inspector General
                                Analysis of Survey Results on the Smithsonian’s

In Brief                        Annual Financial Statement Assurance Letter
                                Process
                                Report Number A-13-08, January 31, 2014


Why We Did This Audit            What We Found

Our audit objectives were        In responses to our survey questions, unit directors stated that
to evaluate (a) the process      they generally understand what they are attesting to, and they
that unit directors use to       have an effective process to support their attestations.
attest to the effectiveness
of their units’ financial        Over half of the respondents did not receive formal training
reporting controls and           regarding their responsibilities as outlined in SD 310. However,
financial information            those that did attend training indicated that it was effective or very
reliability; (b) the training    effective. In addition, while the unit directors believed that the
and guidance that the            Office of the Comptroller generally provided them with effective
Office of the Comptroller        guidance, some of them would like more direction on internal
provides to unit directors       control standards.
regarding financial
reporting controls; and          Unit directors did not identify any material weaknesses,
(c) Smithsonian                  deficiencies, or areas of concern during the fiscal year 2012
management’s response to         attestation letter process.
deficiencies or areas of
concern identified by the        The survey results did not indicate any major problems with the
unit directors during the        fiscal year 2012 assurance letter process; however, the
attestation letter process.      respondents did offer several areas where Smithsonian
                                 management could improve the process and offer additional
Background                       training.

All Smithsonian unit             What We Recommended
directors must attest
annually that their units’       To improve the annual assurance letter process, we recommended
financial reporting controls     that the Chief Financial Officer evaluate the unit directors’
are operating effectively        comments to the survey and provide an action plan that addresses
and that financial               the survey’s results.
information does not
contain material                 Management concurred with our recommendation and plans to
misstatements or                 offer one annual classroom style training class as well as on-line
omissions. In June 2011,         training. Further, management will continue to offer individual
Smithsonian management           sessions to directors by request.
created Smithsonian
Directive 310, Financial
Reporting and Risk
Management Internal
Controls. This directive
outlines the guidance to
unit directors regarding
their responsibility during      For additional information or a copy of the full report, contact the
the annual attestation           Office of the Inspector General at (202) 633-7050 or visit
letter process.                  http://www.si.edu/oig.
SMITHSONIAN INSTITUTION                              OFFICE OF THE INSPECTOR GENERAL



                            INTRODUCTION

All Smithsonian unit directors must attest annually that their units’ financial
reporting controls are operating effectively and that financial information does not
contain material misstatements or omissions. Smithsonian management requires
that unit directors conduct this attestation because they are in positions that are
critical for safeguarding Smithsonian assets and resources.

Our audit objectives were to evaluate (a) the process that unit directors use to
attest to the effectiveness of their units’ financial reporting controls and financial
information reliability; (b) the training and guidance that the Office of the
Comptroller (OC) provides to unit directors regarding financial reporting controls;
and (c) Smithsonian management’s response to deficiencies or areas of concern
identified by the unit directors during the attestation letter process.

To meet these objectives, we conducted a survey of all unit directors who must
attest to the effectiveness of their units’ financial reporting controls and the
reliability of their units’ financial information. We provided a redacted copy of the
responses to the survey to the Under Secretary for Finance and
Administration/Chief Financial Officer (CFO). See Appendix A for our transmittal
memo of the survey responses to the CFO. A detailed description of our objectives,
scope, and methodology is included in Appendix B. The summary of the results of
our survey are included in Appendix C, and management’s response to the audit
report is in Appendix D.

After we started our audit, in June 2013, OC and the Office of the Treasurer were
combined to form the Office of Finance and Accounting. Our review focused on the
attestation letter process for fiscal year 2012—the period prior to this
reorganization.

                             BACKGROUND

In June 2011, Smithsonian management created Smithsonian Directive (SD) 310,
Financial Reporting and Risk Management Internal Controls, based on the principles
outlined in the Committee of Sponsoring Organizations of the Treadway
Commission evaluation methodology, the Office of Management and Budget
Circular A-123, Management’s Responsibility for Internal Control, and the Sarbanes
Oxley Act of 2002. This directive outlines the guidance to unit directors regarding
their responsibility during the annual attestation letter process. To follow up on the
directive, in September 2011, Smithsonian management offered formal training to
assist unit directors in understanding their responsibilities for financial reporting
and internal controls.

SD 310, Financial Reporting and Risk Management Internal Controls

SD 310 requires unit directors to implement and execute all internal controls as
they pertain to unit operations. In addition, SD 310 outlines the unit directors’
responsibility to provide assurance that their units’ financial reporting controls are

                                           1
SMITHSONIAN INSTITUTION                              OFFICE OF THE INSPECTOR GENERAL



operating effectively and that financial information does not contain material
misstatements or omissions.

SD 310 Definitions

Assurance Statement — A written statement by each unit director that is submitted
to the Office of the Chief Financial Officer at the close of each fiscal year as
assurance that a unit’s internal controls are operating effectively and that the unit’s
financial information fairly represents the unit’s financial condition.

Attestation — The term “attestation” is used interchangeably with the term
“assurance.”

Critical Controls — Those controls, which by their absence or weakness, could have
a material impact on the Smithsonian’s presentation of financial information to both
internal and external stakeholders.

Material Weakness — A deficiency or a combination of deficiencies in internal
controls, such that there is a reasonable possibility that a material misstatement of
the entity’s financial statements will not be prevented, or detected and corrected,
on a timely basis.

Process Custodians — Unit directors who are responsible for implementing and
executing all internal controls as they pertain to unit operations. Unit operations are
not always financial in nature, but nevertheless contribute to providing reasonable
assurance that financial reports are reliable and accurate.

                                RESULTS OF AUDIT

Based on our interviews with management, as well as our review of the survey
results, training records, and the fiscal year 2012 attestation letters:

1. Unit directors stated that they generally understand what they are attesting to,
   and they have an effective process to support their attestations.

2. Over half of the respondents did not receive formal training regarding their
   responsibilities as outlined in SD 310. However, those that did attend relevant
   training indicated that it was effective or very effective. In addition, while the
   unit directors believed that OC generally provided them with effective guidance,
   some of them would like more direction on internal control standards.

3. No unit directors identified any material weaknesses, deficiencies, or areas of
   concern during the fiscal year 2012 attestation letter process.

We issued a survey to all the directors that provided fiscal year 2012 attestations.
Of the 52 we surveyed, 36 responded; 5 of the 16 individuals who did not respond
were no longer in a position that required them to provide an annual attestation
letter because they had left the Smithsonian or were no longer in a director’s role.

                                           2
SMITHSONIAN INSTITUTION                                        OFFICE OF THE INSPECTOR GENERAL



Directors Stated That They Generally Understand What They Are Attesting to and
They Have an Effective Process to Support Their Attestations

According to the unit directors, they generally understand what they are attesting
to in the fiscal year-end attestation letter. As illustrated in the figure below, 86
percent of the respondents stated that they understand what they are attesting to,
and 14 percent of respondents stated that they understand most or some of what
they were attesting to in the attestation letter. Furthermore, none of the
respondents stated that they do not understand most or all of what they are
attesting to in the letter.

               How Would You Describe Your Level of Understanding of
                           What You Are Attesting to?

 100%
  90%         86%
  80%
  70%
  60%
  50%
  40%
  30%
  20%
                                8%                6%
  10%
                                                                   0%                0%
   0%
        I understand what I understand most I understand some      I do not       I do not
          I am attesting to  of what I am      of what I am   understand most understand what I
                              attesting to      attesting to    of what I am   am attesting to
                                                                attesting to


We determined that unit directors generally have an effective process to support
their attestations. We asked unit directors to describe the process they go through
to support their attestation. Based on our evaluation of the 36 responses to this
question, we concluded that the directors were conducting reasonable internal
control and monitoring activities to support their attestations. Although the
responses varied, the following two were representative of the respondents’
answers and contained characteristics that are part of a sound process:

        “I meet weekly with my director of finance and as part of that meeting
        review any/all business operations for compliance. Additionally I meet every
        2 weeks with my senior managers and discuss any changes to business
        operations including new or updated SD’s to provide guidance for our work.”

        “I have a meeting with each of my direct reports and discuss the control
        procedures used in their respective areas and their effectiveness. In some
        cases, I also ask them to provide written assurance for their respective areas
        of responsibility.”
                                                   3
SMITHSONIAN INSTITUTION                              OFFICE OF THE INSPECTOR GENERAL



Although Over Half of the Respondents Did Not Have Training, the Directors Stated
that OC Generally Provided Them with Effective Guidance

According to our survey, 61 percent of the respondents replied they did not receive
training. However, for those who indicated they did have training, 86 percent
described the training as “Very Effective” or “Effective.”

The respondents had the option to leave comments and some of them thought
additional training or guidance would be helpful. Two respondents commented as
follows:

      “Effective at the time but regular, easily accessible refresher training is
      essential.”

      “We are provided no [guidance] in establishing controls. Each unit is
      expected to implement their own controls. Instead of us spending time
      creating a process, why can't the SI provide us with a process and teach this
      to the financial teams in the units?”

OC offered formal training in September 2011 and October 2012, after Smithsonian
management issued SD 310. The directive required unit directors to attest to the
effectiveness of their units’ financial internal controls and the reliability of their
units’ financial information. By not offering more periodic training, directors may be
unable to effectively attest. For example, they may not have a sufficient control
structure in place to support their attestations.




                                          4
SMITHSONIAN INSTITUTION                                   OFFICE OF THE INSPECTOR GENERAL



Notwithstanding this lack of training among respondents, the survey results
indicated that OC generally provided effective guidance regarding the respondents’
responsibilities as process custodians and attestation signatories. As illustrated in
the figure below, 72 percent of the respondents replied that OC’s guidance was
very effective or effective.

                           How Would You Describe OC's Guidance?

 70%
                                     61%
 60%

 50%

 40%

 30%
                                                       20%
 20%
              11%
                                                                          8%
 10%

  0%
          Very Effective           Effective   Somewhate Ineffective   Ineffective


In addition, the respondents had the option to add comments regarding OC’s
guidance. The following quote is an example of the respondents’ comments:

       “If I had a question about [the] process, [the comptroller] was very
       responsive.”

No Material Weaknesses, Deficiencies, or Areas of Concern Were Identified During
the 2012 Attestation Letter Process

Based on our review of fiscal year 2012 attestation letters, no unit director
identified material weaknesses. Likewise, according to management, unit directors
reported no material weaknesses in fiscal year 2013.

Based on the results of our survey, unit directors generally appear to have
processes that identify and resolve control deficiencies, including material
weaknesses. However, some unit directors would like more guidance, as illustrated
by the following comment by a respondent:

       “There should be one document that says, if we audit you, this is exactly
       what we are going to be looking for and this is the process that you should
       be following (daily, weekly, monthly?) to ensure that you are compliant.”

                                               5
SMITHSONIAN INSTITUTION                             OFFICE OF THE INSPECTOR GENERAL



Conclusion

The survey results did not indicate any major problems with the fiscal year 2012
assurance letter process; however, as described in their open-ended comments, the
respondents did offer several areas where Smithsonian management could improve
the process and offer additional training.

Recommendation

To improve the annual assurance letter process, we recommend that the CFO
evaluate the unit directors’ comments to the survey and provide an action plan that
addresses the survey’s results.

Management concurred with our recommendation and plans to offer one annual
classroom style training class as well as on-line training. Further, management will
continue to offer individual sessions to directors by request. The full text of their
response appears in Appendix D.




                                          6
SMITHSONIAN INSTITUTION         OFFICE OF THE INSPECTOR GENERAL


                                                   Appendix A




                          A-1
SMITHSONIAN INSTITUTION                              OFFICE OF THE INSPECTOR GENERAL


                                                                          APPENDIX B

OBJECTIVES, SCOPE, AND METHODOLOGY

The objectives of this audit were to evaluate (a) the process that unit directors use
to attest to the effectiveness of their units’ financial reporting controls and financial
information reliability; (b) the training and guidance that the Office of the
Comptroller provides to unit directors regarding financial reporting controls; and (c)
Smithsonian management’s response to deficiencies or areas of concern identified
by the unit directors during the assurance letter process.

To accomplish our objectives, we developed a seven-question survey that we sent
to all 52 of the fiscal year 2012 attestation letter signatories. The survey consisted
of multiple-choice, dichotomous, and open-ended questions. The majority of the
evidence we used to support our findings and conclusions came from the survey.
We did not review the underlying documentation that directors stated they used to
support that processes and controls were in place to enable them to attest to their
units’ financial reporting effectiveness. Refer to Appendix C for the statistical results
of the survey.

In addition, we reviewed Smithsonian Directive 310, Financial Reporting and Risk
Management Internal Controls. We also reviewed the fiscal year 2012 attestation
letters signed by the unit directors. We did not assess the reliability of computer
processed data because no information technology systems were relevant to the
objectives of our audit.

We met with management and staff from the Office of the Chief Financial Officer,
the Office of the Comptroller, and representatives of certain unit directors. In
addition, we answered various questions from survey respondents through
telephone and email.

We conducted this performance audit in Washington, DC from June 2013 to
November 2013 in accordance with generally accepted government auditing
standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe that the evidence we
obtained provides a reasonable basis for our findings and conclusions based on our
audit objectives.




                                          B-1
SMITHSONIAN INSTITUTION                         OFFICE OF THE INSPECTOR GENERAL


                                                                   APPENDIX C

SUMMARY OF THE SURVEY RESULTS

                              Survey Response Rate

                                       Total          Percentage
           Responded                    36               69%
           Not Responded                16               31%
            Total Surveys Sent          52              100%


      Not Responded                 Number                 Percentage to
                                                            Population
No Longer at Smithsonian               5                       10%
or Not in the Director Role
Not Responded                         11                        21%
           Total                      16                        31%

                                Survey Questions

1. As a unit director, you are responsible for signing a September 30th
   fiscal year end annual assurance letter. How would you describe your
   level of understanding of what you are attesting to?

                                      Number                Percentage
I understand what I am                  31                     86%
attesting to.
I understand most of what I                3                     8%
am attesting to.
I understand some of what I                2                     6%
am attesting to.
I do not understand most of                0                     0%
what I am attesting to.
I do not understand what I am              0                     0%
attesting to.
              Total                        36                  100%


2. Have you had training that addressed your responsibility for
   establishing and maintaining adequate internal controls over financial
   reporting as described in the assurance letter?

                                    Number                  Percentage
Yes                                   14                       39%
No                                    22                       61%
          Total                       36                      100%

                                      C-1
SMITHSONIAN INSTITUTION                          OFFICE OF THE INSPECTOR GENERAL




3. If yes, how would describe the training’s effectiveness?

                                        Number               Percentage
Very effective                             6                    43%
Effective                                  6                    43%
Somewhat ineffective                       2                    14%
Ineffective                                0                     0%
            Total                         14                   100%

4. How would you describe the Office of the Comptroller’s guidance on
   your responsibility as a Process Custodian, as defined in SD310, and
   attestation signatory?

                                        Number               Percentage
Very effective                             4                    11%
Effective                                 22                    61%
Somewhat ineffective                       7                    20%
Ineffective                                3                     8%
            Total                         36                   100%

5. Indicate what critical internal control documentation you use to support
   your attestation.*

          Documentation Type                              Total
Risk Assessment                                            20
Critical Control Assessment                                19
Flow Charts or Narrative Descriptions                      11
Unit Level Policies and Procedures                         30


*Some unit directors chose more than one type of documentation.




                                         C-2
Appendix D - Management's Response
Appendix D - Management's Response
SMITHSONIAN INSTITUTION                   OFFICE OF THE INSPECTOR GENERAL


                                                           APPENDIX E

MAJOR CONTRIBUTORS TO THIS REPORT

Bruce Gallus, Supervisory Auditor
Joseph Benham, Auditor-in-Charge
Elsy Woodill, Auditor




                                    E-1
